No. 20-330

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
PETITIONER

v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

REPLY BRIEF FOR THE PETITIONER

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-221

TABLE OF CONTENTS

Page
A.
B.

Absent mootness considerations, the decision
below would have warranted this Court’s review ........ 2
The appropriate response to the mootness that
respondents anticipate would be to vacate the
decision below under Munsingwear .............................. 4

(I)

In the Supreme Court of the United States
No. 20-330
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
PETITIONER

v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

REPLY BRIEF FOR THE PETITIONER

As the petition explained, the decision below allowed
private parties to seek to enforce the Emoluments
Clauses against President Trump in his official capacity
under an implied cause of action based on a boundless
theory of competitor standing. Respondents contend
that certiorari should be denied in light of the election
results. But setting aside the mootness issue that respondents anticipate, they lack any persuasive argument that the decision below would not have warranted
this Court’s review, and it plainly would have. Thus, if
Congress accepts the votes of the Electoral College, the
Court should hold the petition until it becomes moot after the inauguration, and then grant certiorari and vacate under United States v. Munsingwear, Inc., 340
U.S. 36 (1950), as the decision below should not be allowed to stand without this Court’s review.
(1)

2
A. Absent Mootness Considerations, The Decision Below
Would Have Warranted This Court’s Review

Setting aside the mootness issue anticipated by respondents, the decision below plainly would have merited both this Court’s review and reversal.
1. As a threshold matter, the panel’s decision to allow respondents to bring a novel lawsuit under the
Emoluments Clauses seeking injunctive relief against
the President would have justified further review based
solely on the serious separation-of-powers concerns at
stake. Pet. 22-23, 27-28. Respondents do not dispute
that they ask the Judiciary “to decide whether an action
taken by one of the other two branches of the Federal
Government was unconstitutional.” Raines v. Byrd, 521
U.S. 811, 819-820 (1997); see Br. in Opp. 2-3. Nor do
they deny that they urge federal courts to take that
weighty step by creating an implied cause of action not
expressly authorized by Congress. Pet. 12, 27. And
they acknowledge that they sought “injunctive relief ”
against the President in his official capacity, and never
disavow that they would have pursued “ ‘intrusive discovery’ ” as well. Br. in Opp. 4, 7, 16 (citation omitted).
Instead, respondents contend that these separationof-powers concerns will “no longer” exist in the near future, Br. in Opp. 16, but that has no bearing on whether
the petition would otherwise have been worthy of this
Court’s review. Respondents further observe that the
decision below did not definitively resolve whether they
could “obtain relief against the President.” Id. at 15
(emphasis omitted). But this Court likely would have
addressed that threshold defect in this suit, consistent
with its recognition that “the high respect that is owed
to the office of the Chief Executive is a matter that

3
should inform the conduct of the entire proceeding,”
Cheney v. United States Dist. Ct., 542 U.S. 367, 385
(2004) (brackets, citation, and ellipsis omitted).
2. That further review would have been warranted
is underscored by the fact that the court of appeals allowed this extraordinary lawsuit to proceed by adopting
an expansive theory of competitor standing at odds with
the decisions of this Court and other circuits. Pet. 1218, 23-27. Respondents do not even mention Already,
LLC v. Nike, Inc., 568 U.S. 85 (2013), much less attempt
to reconcile the decision below with this Court’s rejection of “a boundless theory of standing” under which “a
market participant is injured for Article III purposes
whenever a competitor benefits from something allegedly unlawful.” Id. at 99; see Pet. 15-16. They also fail
to reconcile the Article III analysis below with this
Court’s precedents on traceability, or to address the
fact that “even if the President’s personal gains * * *
were removed from the calculus,” “[f ]oreign diplomats
and state officials might, quite lawfully, still choose the
Trump establishment over plaintiffs’ establishments to
attempt to curry favor with the President.” Pet. App.
168a (Walker, J., statement in opposition to the denial
of rehearing en banc); see Pet. 16-18. And their observation that the courts of appeals uniformly require “ ‘a
sufficient likelihood’ of injury” to establish competitor
standing, Br. in Opp. 13 (citation omitted), in no way obviates the circuit split—recognized by several of the dissenting judges below—over what likelihood of injury is
in fact sufficient. See Pet. 24-26; Pet. App. 125a-127a
(Menashi, J., dissenting from the denial of rehearing en
banc); id. at 170a (Walker, J., statement in opposition to
the denial of rehearing en banc).

4
Indeed, confronted with the holding of a Fourth Circuit panel that the plaintiffs in a parallel suit lacked
competitor standing, respondents merely observe that
the decision was vacated by the en banc Fourth Circuit.
Br. in Opp. 14. But no member of the Fourth Circuit
called that aspect of the panel’s decision into question,
and five judges adhered to it and specifically rejected
the Second Circuit’s contrary analysis here. Pet. 26-27;
see In re Trump, 958 F.3d 274, 327 (4th Cir. 2020) (en
banc) (Niemeyer, J., dissenting), petition for cert. pending, No. 20-331 (filed Sept. 9, 2020).
B. The Appropriate Response To The Mootness That Respondents Anticipate Would Be To Vacate The Decision
Below Under Munsingwear

Given that the decision below would have warranted
further review apart from any anticipated mootness, if
Congress accepts the votes of the Electoral College, see
3 U.S.C. 15, this Court should hold the petition until it
becomes moot after the inauguration, and then grant
and vacate the decision below under Munsingwear. As
respondents recognize, Br. in Opp. 9, and this Court recently confirmed, vacatur under Munsingwear is available if a case becomes “moot before certiorari” when the
decision below would have been worthy of further review absent mootness. Azar v. Garza, 138 S. Ct. 1790,
1793 (2018) (per curiam); see Camreta v. Greene, 563
U.S. 692, 713 (2011) (explaining that vacatur under
Munsingwear is appropriate when the court of appeals’
decision was independently “appropriate for review”).
Respondents offer two reasons for why this Court
should not employ that equitable remedy, but neither
withstands scrutiny.

5
First, while respondents correctly observe that any
mootness would not be “attributable” to them, Br. in
Opp. 10, they ignore that it would not be attributable to
the President either. Rather, any mootness here would
result from the election outcome. Such “vagaries of circumstance” warrant vacatur, because neither the Office
of the President nor anyone else should continue to be
governed by a precedential decision that likely would
not have survived this Court’s review but for “mootness
by happenstance.” U.S. Bancorp Mortg. Co. v. Bonner
Mall P’ship, 513 U.S. 18, 25 & n.3 (1994).
Second, relying on the fact that this case is scheduled
for the Court’s consideration at a conference shortly before the inauguration occurs, respondents contend that
the case will not then be moot and so the Court should
simply deny review. Br. in Opp. 9-10 & n.1. But that
happenstance of timing is no basis for leaving an erroneous decision on the books that this Court has not had
a meaningful opportunity to review. Although the government acted expeditiously to preserve this Court’s
opportunity to resolve the case during this Term, see id.
at 10 n.1, that is no reason to deny certiorari now solely
because, as a result, the mootness that respondents anticipate has not yet occurred. Rather, the Court could
simply wait several days and then grant certiorari and
vacate the decision below under Munsingwear if the anticipated mootness materializes.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

DECEMBER 2020

